No. 20IN THE

Supreme Court of the United States
___________

CALIFORNIA PARENTS FOR THE EQUALIZATION OF
EDUCATIONAL MATERIALS; VISHNUKUMAR THUMATI,
individually and as parent and next friend of P.T. and
N.T.; and SHAILESH SHILWANT, individually and as
parent and next friend of P.S. and P.S.S.,
Petitioners,
v.
TOM TORLAKSON, in his official capacity as
State Superintendent of Public Instruction and
Director of Education for the California Department
of Education, et al.,
Respondents.
___________

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
___________

PETITION FOR A WRIT OF CERTIORARI
___________

CARTER G. PHILLIPS*
PAUL J. ZIDLICKY
J. MANUEL VALLE
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
cphillips@sidley.com
Counsel for Petitioners
February 16, 2021
* Counsel of Record

QUESTION PRESENTED
Whether the Free Exercise Clause permits the government to single out a religion for disfavored treatment so long as it does not “substantially burden” religious exercise.

(i)

ii
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
Petitioners are California Parents for the Equalization of Educational Materials (“CAPEEM”), a nonprofit organization primarily comprising Hindu parents whose children are enrolled in California public
schools, and two Hindu parents, Vishnukumar Thumati and Shailesh Shilwant, whose children are enrolled in California public schools.
Pursuant to this Court’s Rule 29.6, Petitioner CAPEEM states that it does not have any parent corporation and no publicly held corporation owns 10% or
more of its stock.
Respondents are the following California state and
local educational administrators involved in curriculum development and approval:
•
Tom Torlakson, in his official capacity as State
Superintendent of Public Instruction and Director of
Education for the California Department of Education;
•
Tom Adams, in his official capacity as Deputy
Superintendent of the Instruction and Learning Support Branch of the California Department of Education;
•
Stephanie Gregson, in her official capacity as
Director of the Curriculum Frameworks and Instructional Resources Division of the California Department of Education;
•
Michael Kirst, Ilene Straus, Sue Burr, Bruce
Holaday, Feliza I. Ortiz-Licon, Patricia Ann Rucker,
Nicolasa Sandoval, Ting L. Sun, and Trish Boyd Williams, each in their official capacity as a member of the
California State Board of Education;

iii
•
Myong Leigh, in his official capacity as Interim
Superintendent of the San Francisco Unified School
District;
•
Shamann Walton, Hydra Mendoza-McDonell,
Stevon Cook, Matt Haney, Emily M. Murase, Rachel
Norton, and Mark Sanchez, each in their official capacity as a member of the San Francisco Unified School
District;
•
Rick Schmitt, in his official capacity as Superintendent of the San Ramon Valley Unified School District;
•
Mark Jewett, Ken Mintz, Rachel Hurd, Denise
Jennison, and Greg Marvel, each in their official capacity as a member of the San Ramon Valley Unified
School District Board of Education;
•
Wendy Gudalewicz, in her official capacity as
Superintendent of the Cupertino Union School District;
•
Anjali Kausar, Liang Chao, Kristen Lyn, Soma
McCandless, and Phyllis Vogel, each in their official
capacity as a member of the Cupertino Union School
District Board of Education;
•
Cheryl Jordan, in her official capacity as Superintendent of the Milpitas Unified School District; and
•
Daniel Bobay, Danny Lau, Chris Norwood, Hon
Lien, and Robert Jung, each in their official capacity
as a member of the Milpitas Unified School District
Board of Education.
Arvind Raghavan, a plaintiff-appellant below, is a
nominal respondent before this Court.

TABLE OF CONTENTS

Page

QUESTION PRESENTED ........................................... i
PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT ................................................... ii
TABLE OF AUTHORITIES ...................................... vii
OPINIONS AND ORDERS BELOW .......................... 1
STATEMENT OF JURISDICTION ............................ 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ...................................... 1
A. Factual Background ...................................... 4
B. Petitioners’ Challenge to the Standards
and Framework .............................................. 6
C. The Proceedings Below ................................ 11
REASONS FOR GRANTING THE PETITION ........ 14
I. THE DECISION BELOW IMPLICATES A
MATURE CONFLICT AMONG THE
COURTS OF APPEALS OVER WHETHER
A FREE EXERCISE CLAIM REQUIRES
THAT RELIGIOUS DISCRIMINATION
“SUBSTANTIALLY BURDENS” RELIGIOUS EXERCISE. .......................................... 15
A. There Is An Acknowledged Conflict
Among The Courts Of Appeals Regarding Whether A Free Exercise Claim
Requires That Religious Discrimination
“Substantially Burdens” Religious Practice. .............................................................. 15
B. This Case Provides An Ideal Vehicle To
Resolve The Conflict. ................................... 22
(iv)

v
TABLE OF CONTENTS—continued

Page

C. The Conflict Concerns An Important
And Recurring Issue Of Federal Law. ........ 23
II. REVIEW IS WARRANTED BECAUSE
THE NINTH CIRCUIT’S “SUBSTANTIAL
BURDEN” REQUIREMENT CONFLICTS
WITH THIS COURT’S PRECEDENT.............. 24

CONCLUSION .......................................................... 27
APPENDIX
APPENDIX A: Opinion, Cal. Parents for the
Equalization of Educ. Materials v. Torlakson,
973 F.3d 1010 (9th Cir. 2020) (ECF No. 54) .......... 1a
APPENDIX B: Order Granting Defendants’ Motion for Summary Judgment, Denying Plaintiffs’ Cross-Motion for Summary Judgment,
Cal. Parents for Equalization of Educ. Materials v. Torlakson, 370 F. Supp. 3d 1057 (N.D.
Cal. 2019) (ECF No. 236), aff’d, 973 F.3d 1010
(9th Cir. 2020) ....................................................... 23a
APPENDIX C: Order Granting in Part and
Denying in Part Defendants’ Motion to Dismiss, Cal. Parents for Equalization of Educ.
Materials v. Torlakson, 267 F. Supp. 3d 1218,
1221 (N.D. Cal. 2017) (ECF No. 119), aff’d, 973
F.3d 1010 (9th Cir. 2020) ..................................... 67a
APPENDIX D: Order Denying Rehearing, Cal.
Parents for Equalization of Educ. Materials v.
Torlakson, No. 19-15607 (9th Cir. Sept. 23,
2020), ECF No. 56 ................................................ 95a

vi
TABLE OF CONTENTS—continued

Page

APPENDIX E: Order Denying Plaintiffs’ Motion
to Amend Complaint, Cal. Parents for the
Equalization of Educ. Materials v. Torlakson,
No. 17-cv-00635-CRB (N.D. Cal. Oct. 26, 2018),
ECF No. 204 .......................................................... 98a
APPENDIX F: Challenged Content Standards
(Excerpted from Cal. Dep’t of Educ., HistorySocial Science Content Standards for California Public Schools, Kindergarten Through
Grade Twelve (adopted Oct. 1998) (Exhibit 1 in
Appendix of Exhibits in Support of the State
Defendants’ Motion for Summary Judgment,
Cal. Parents for the Equalization of Educ. Materials v. Torlakson, No. 17-cv-00635-CRB
(N.D. Cal. Aug. 3, 2018), ECF No. 185-1)) ......... 100a
APPENDIX G: Challenged Framework (Excerpted from Cal. Dep’t of Educ., History-Social
Science Framework for California Public
Schools, Kindergarten Through Grade Twelve
(adopted July 2016) (Exhibit 2 in Appendix of
Exhibits in Support of the State Defendants’
Motion for Summary Judgment, Cal. Parents
for the Equalization of Educ. Materials v. Torlakson, No. 17-cv-00635-CRB (N.D. Cal. Aug. 3,
2018), ECF No. 185-1)) ....................................... 118a

vii
CASES

TABLE OF AUTHORITIES

Page

Altman v. Bedford Cent. Sch. Dist., 245 F.3d
49 (2d Cir. 2001) .........................................
18
Am. Family Ass’n, Inc. v. City & Cty. of San
Francisco, 277 F.3d 1114 (9th Cir. 2002) ....
19
Branch Ministries v. Rossotti, 211 F.3d 137
(D.C. Cir. 2000) ..........................................
20
Brown v. Borough of Mahaffey, 35 F.3d 846
(3d Cir. 1994) ...................................... 16, 17, 23
Brown v. Polk Cty., 61 F.3d 650 (8th Cir.
1995) ...........................................................
21
Church of the Lukumi Babalu Aye, Inc. v. City
of Hialeah, 508 U.S. 520 (1993) ..... 4, 16, 23, 25
Draper v. Logan Cty. Pub. Library, 403 F.
Supp. 2d 608 (W.D. Ky. 2005)....................
18
Emp’t Div. v. Smith, 494 U.S. 872 (1990) ....
16
Espinoza v. Mont. Dep’t of Revenue, 140 S.
Ct. 2246 (2020) ......................................... 13, 24
Fleischfresser v. Dirs. of Sch. Dist. 200, 15
F.3d 680 (7th Cir. 1994) .............................
20
Goodall ex rel. Goodall v. Stafford Cty. Sch.
Bd., 60 F.3d 168 (4th Cir. 1995) ................
20
Hartmann v. Stone, 68 F.3d 973 (6th Cir.
1995) ................................................... 17, 18, 22
Holt v. Hobbs, 135 S. Ct. 853 (2015) .............
16
Masterpiece Cakeshop, Ltd. v. Colo. Civil Rights
Comm’n, 138 S. Ct. 1719 (2018) ............. 4, 24, 26
Peter v. Wedl, 155 F.3d 992 (8th Cir. 1998) ...
21
Strout v. Albanese, 178 F.3d 57 (1st Cir.
1999) ......................................................... 19, 20
Tenafly Eruv Ass’n, Inc. v. Borough of Tenafly,
309 F.3d 144 (3d Cir. 2002) ............... 16, 20, 22
Trinity Lutheran Church of Columbia, Inc.
v. Comer, 137 S. Ct. 2012 (2017) .......... 4, 25, 26

viii
TABLE OF AUTHORITIES—continued

Page

Vernon v. City of Los Angeles, 27 F.3d 1385
(9th Cir. 1994) ........................................... 18, 19
KDM ex rel. WJM v. Reedsport Sch. Dist.,
196 F.3d 1046 (9th Cir. 1999) ................... 21, 25
CONSTITUTION AND STATUTES
U.S. Const. amend. I .....................................
U.S. Const. amend. XIV, § 1 .........................
42 U.S.C. § 1983 ............................................
Cal. Educ. Code § 60010................................
§ 60119 ...............................
§ 60200(c)(4) .......................
§ 60603(i) ............................

1
1
2
6
5
5
5

LEGISLATIVE MATERIAL
S. Comm. on Educ., Analysis of S.B. 1540,
2011-12 Reg. Sess. (Cal. 2012) ...................

6

PETITION FOR A WRIT OF CERTIORARI
Petitioners CAPEEM, Vishnukumar Thumati, and
Shailesh Shilwant respectfully petition for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Ninth Circuit in this case.
OPINIONS AND ORDERS BELOW
The opinion of the court of appeals (Pet. App. 1a–
22a) is reported at 973 F.3d 1010. The relevant orders
of the district court (Pet. App. 67a–94a and Pet. App.
23a–66a) are reported at 267 F. Supp. 3d 1218 and 370
F. Supp. 3d 1057.
STATEMENT OF JURISDICTION
The judgment of the court of appeals was entered on
September 3, 2020. Pet. App. 2a. Petitioner filed a
timely petition for rehearing, which the Ninth Circuit
denied on September 23, 2020. Id. at 95a–97a. On
March 19, 2020, in light of public-health concerns relating to COVID-19, this Court entered an order extending the time to file a petition for a writ of certiorari
to 150 days. This Court has jurisdiction pursuant to 28
U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The First Amendment to the United States Constitution states: “Congress shall make no law respecting
an establishment of religion, or prohibiting the free exercise thereof . . . .” U.S. Const. amend. I. The Fourteenth Amendment states: “[N]or shall any State deprive any person of life, liberty, or property, without
due process of law . . . .” Id. amend. XIV, § 1.
Section 1983 of Title 42 of the U.S. Code states:

2
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any
State . . . , subjects, or causes to be subjected, any
citizen of the United States . . . to the deprivation
of any rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity, or
other proper proceeding for redress . . . .
42 U.S.C. § 1983.
STATEMENT OF THE CASE
This case presents the fundamental question of what
is the appropriate legal standard to use in deciding
whether government action that singles out a religion
for disfavored treatment violates the Free Exercise
Clause. In the decision below, the Ninth Circuit reaffirmed its settled view that the Free Exercise Clause
offers no protection against hostile government action
directed at a religious group or belief unless it imposes
a “substantial burden” on religious exercise. Pet. App.
10a–11a. That view, which is shared by other courts of
appeals, conflicts directly with the legal standard applied by the Third and Sixth Circuits. Review is warranted to resolve this deep and acknowledged conflict
among the federal courts of appeals on an issue of surpassing national importance.
In this case, the Ninth Circuit affirmed the dismissal
of Petitioners’ Free Exercise claim alleging that California’s public school curriculum requirements and
policies had singled out the Hindu faith for a hostile
and derogatory portrayal. Pet. App. 3a–4a. Unlike the
government’s depiction of the origin and beliefs of
other religions, which are described in a favorable (or
at least neutral) manner, California fundamentally
disparages Hinduism, describing it as a negative social

3
construct built on a “caste” system imposed from without by Aryan invaders, rather than as a divinely inspired religion. That negative depiction of Hinduism is
taught to the children of Petitioners and their members, and those children are expected to repeat the
negative portrayals of their Hindu faith in class and
on tests. ER2681–84.1 The sole basis for the Ninth Circuit’s rejection of this claim was that California’s conduct did not impose a “substantial burden” on their religious exercise. Pet. App. 10a–11a.
The Ninth Circuit’s decision implicates a deep and
longstanding conflict among the courts of appeals. Decisions of other federal circuits have aligned with the
Ninth Circuit in imposing a “substantial burden” requirement for Free Exercise claims. See infra at 18–
20. At the same time, the Third Circuit and the Sixth
Circuit have expressly rejected the other courts’ “substantial burden” analysis. See infra at 16–18. In doing
so, they have explained that the “substantial burden”
standard embraced by the Ninth Circuit would improperly immunize petty harassment of religious minorities from any First Amendment scrutiny. See infra
at 17.
This case provides an excellent vehicle for resolving
this conflict because the decision below was predicated
on the Ninth Circuit’s standard for stating a claim under the Free Exercise Clause. Here, the Ninth Circuit
expressly rejected the Free Exercise claim for the sole
reason that it concluded that the harm alleged by Petitioners had not sufficiently burdened Petitioners’
free exercise of religion. If the case were instead governed by the standard applied to government conduct
1 “ER” citations refer to the Appellants’ Excerpts of Record,
CAPEEM v. Torlakson, No. 19-15607 (9th Cir. Aug. 8, 2019), ECF
No. 11.

4
singling out a particular religion that controls in the
Third and Sixth Circuits, then Petitioners’ claim
would have moved forward into discovery and ultimately to an assessment of whether the treatment of
the Hindu faith by California satisfies strict scrutiny.
What is more, the application of the “substantial
burden” requirement to a claim the government is targeting religion cannot be reconciled with this Court’s
decisions. Indeed, the Court has repeatedly affirmed
that government action targeting religion violates the
Free Exercise Clause unless the government can survive strict scrutiny. See, e.g., Church of the Lukumi
Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 546,
(1993). More recently, in Trinity Lutheran, this Court
expressly rejected the argument that discriminatory
state action violates the Free Exercise Clause only
when it “meaningfully burden[s]” religious exercise.
See Trinity Lutheran Church of Columbia, Inc. v.
Comer, 137 S. Ct. 2012, 2022 (2017) (emphasis added).
To the contrary, when it comes to “express discrimination against religious exercise,” id., the First Amendment prohibits “indirect coercion,” id. (quoting Lyng v.
Nw. Indian Cemetery Protective Ass’n, 485 U.S. 439,
450 (1988)); see also Masterpiece Cakeshop, Ltd. v.
Colo. Civil Rights Comm’n, 138 S. Ct. 1719, 1731
(2018) (“The Free Exercise Clause bars even ‘subtle departures from neutrality’ on matters of religion.”). Put
simply, when a plaintiff alleges the government is singling out a religion for disfavored treatment, there is
no “substantial burden” requirement to state a claim
under the Free Exercise Clause.
The petition for certiorari should be granted.
A. Factual Background
The California State Board of Education (the “State
Board”) develops the State’s official policies concerning

5
curriculum content and standardized requirements for
local school districts. Pet. App. 4a. Local school districts must adhere to the dictates of these materials,
known as the History-Social Science Content Standards (the “Standards”) and the History-Social Science
Framework (the “Framework”), in designing course
materials. See Cal. Educ. Code § 60119 (requiring curricular alignment with Standards and Framework as
a condition of eligibility for state funds); id.
§ 60200(c)(4) (generally requiring that state-approved
instructional materials be “aligned to the content
standards adopted by the state board”). These documents are State policy documents that control the content of the curricula.
The Standards are outlines of the topics and content
California public school students must be taught at
each grade level. Cal. Educ. Code § 60603(i); Pet. App.
25a. The Standards at issue here were adopted in 1998
and cover the history and social science content covered during sixth and seventh grade. As relevant here,
the Standards (i) outline the origins of the world’s major religions, including Judaism, Hinduism, Buddhism, Christianity, and Islam, and (ii) require that
students learn the basic tenets and beliefs of each of
these faiths. Pet. App. 100a–117a. The Standards purport to identify what the government contends are the
most salient and fundamental aspects of any religion.
For instance, concerning Christianity, the Standards
require that students learn “the origins of Christianity
in the Jewish Messianic prophecies, the life and teachings of Jesus of Nazareth as described in the New Testament, and the contribution of St. Paul the Apostle to
the definition and spread of Christian beliefs (e.g., belief in the Trinity, resurrection, salvation).” Id. at
106a.

6
The Standards “do not exist in isolation” and are
meant to be read together with the Framework, which
is “the blueprint for implementing the standards.” S.
Comm. on Educ., Analysis of S.B. 1540, 2011-12 Reg.
Sess., at 1 (Cal. 2012); ER1448. Whereas the Standards are more general, the Framework elaborates on
the items listed in the Standards to provide detailed
guidance for what school districts must teach. See Cal.
Educ. Code § 60010. For instance, while the Standards
contain a single bullet point on Christianity, the
Framework includes almost a page of text, which provides details regarding what California has decided
that public school students must learn about that religion: “students will learn about those teachings of Jesus that advocate compassion, justice, and love for others. He taught that God loved all his creation, regardless of status or circumstance, and that humans should
reflect that love in relations with one another.” Pet.
App. 124a–125a. California adopted the current version of the Framework in 2016 after public comment
and feedback. Id. at 28a–30a.
Because California law requires local school district
curricula to align with the Standards and the Framework in order to receive funding, not surprisingly, textbooks and lesson plans closely follow the Standards
and the Framework. See, e.g., ER146. Accordingly,
students must learn the material outlined in the
Standards and Framework. See ER146; ER1202.
B. Petitioners’ Challenge to the Standards
and Framework
Petitioners are individual parents of Hindu children
in California public schools and CAPEEM, an organization devoted to promoting an accurate portrayal of
the Hindu religion in California public schools. Pet.
App. 67a. In 2017, Petitioners sued officials at the California Department of Education and members of the

7
State Board, along with several California school districts, alleging that the 1998 Standards and 2016
Framework discriminated against Hinduism by singling out and negatively portraying the Hindu faith,
thereby requiring students to be tested based on a distorted depiction of Hinduism in graded assignments.
Id. at 67a–70a.
As to the Standards, Petitioners explained that their
depiction of the origins, beliefs, and scriptures of Hinduism was hostile, derogatory, and dismissive.
To begin with, the Standards require students to
“Discuss the significance of the Aryan invasions.” Pet.
App. 104a. As Petitioners explained in their Complaint, the “Aryan Invasion Theory” regarding the origins of Hindu religion and culture is a racist, colonialist, and erroneous theory that perpetuates the idea
that fair-skinned and putatively superior “Aryan” peoples invaded India and were responsible for creating
the Hindu faith. ER2675; ER635–36. The State Board
was well aware of these pejorative connotations when
it approved this language. See ER865.
The Standards compound this negative portrayal by
requiring that students be able to “[e]xplain the major
beliefs and practices of Brahmanism in India and how
they evolved into early Hinduism.” Pet. App. 104a. The
term “Brahmanism” is offensive to Hindus and historically has been used in a derogatory manner. ER2661.
The term identifies Hinduism as the religion of Aryan
priests of the Brahmin caste. Id. In other words, the
Standards portray Hinduism as developing from
“Brahmanism,” and tie its development to the Aryan
Invasion Theory. Then, underscoring the supposed relationship between the development of Hinduism from
“Brahmanism” and the caste system, the Standards
require that students be able to “[o]utline the social
structure of the caste system.” Pet. App. 104a. Thus,

8
the Standards link the caste system directly to the development of Hinduism.
In addition to challenging these negative portrayals
of Hinduism, Petitioners also highlighted that the
Standards further discriminated against Hinduism by
omission. That is, for other religions, the Standards
generally identify and highlight a religion’s sacred
scriptures and core beliefs. See supra at 5 (describing
Christianity’s values). The Standards for Judaism, for
instance, require students to learn that (i) Judaism
was “the first monotheistic religion based on the concept of one God who sets down moral laws for humanity”; (ii) “the Hebrew Bible” and “the Commentaries”
are “the sources of the ethical teachings and central
beliefs of Judaism”; and (iii) Judaism’s “belief in God,
observance of law, practice of the concepts of righteousness and justice, and importance of study . . . are
reflected in the moral and ethical traditions of Western
civilization.” Pet. App. 102a. Likewise, the Standards
for Islam require students to (i) “[t]race the origins of
Islam and the life and teachings of Muhammad” and
(ii) “[e]xplain the significance of the Qur’an and the
Sunnah as the primary sources of Islamic beliefs, practice, and law.” Id. at 108a–109a.
By contrast, the Standards identify no central tenets
of Hinduism apart from its purported derivation from
“Brahmanism” and its relationship to the caste system. Pet. App. 104a–105a. The only reference to Hindu
sacred scripture is a later bullet point that refers to the
Bhagavad Gita, which Hindus believe to be divinely
inspired scripture, but is classed as merely an example
of “Sanskrit literature.” Id. at 105a. Put bluntly, in
contrast to Christianity, Judaism, and Islam, the
Standards treat Hinduism not as a religion, but as a
singularly negative “social structure.” Id. at 104a–
105a.

9
Petitioners challenged the Framework, which must
be read alongside and in light of the Standards, for
similar reasons. The Framework repeats and highlights aspects of the negative treatment of Hinduism
set forth in the Standards. For example, though not
using the phrase “Aryan invasion,” as in the Standards, the Framework introduces Hindu culture with a
description of “Indic speakers”—a synonym for Aryans—entering India. Pet. App. 120a–121a. The
Framework asserts that from these Indic speakers a
“Vedic culture emerged as a belief system,” which
eventually became Hinduism, id. at 121a, but this
flatly contradicts Hindu doctrine identifying the divine
origins of its followers’ faith. The Framework goes on
to describe the origin of Hinduism as involving “Brahmins, that is priestly families,” who “assumed authority over complex devotional rituals,” thereby relying on
the offensive, caste-focused, and colonialist description
of the Hindu faith in the Standards. Id. Finally, the
Framework mandates that “[t]eachers should make
clear to students” that the caste system was not just “a
social and cultural structure” but also “a religious belief,” id. at 123a, which makes plain the Standards’
disparaging suggestion that Hinduism and caste are
inextricably linked.
Petitioners also highlighted that the Framework’s
treatment of Hinduism was markedly different from
its treatment of other religions, whose origins and beliefs were treated in a favorable or, at the very least, a
neutral manner. In fact, where earlier drafts of the
Framework could have been viewed as negatively
characterizing other religious faiths, the State Board
sustained objections to and amended the document to
omit these negative portrayals. Thus, when a Jewish
organization objected to the Framework’s reference to
the New Testament’s Parable of the Good Samaritan

10
because it purportedly “demean[s]” Judaism, reference
to that parable was removed. ER2669–71. Or, when
groups objected to the Framework’s statement that
sometimes “Muslim leaders forced Hindus to convert,”
the statement was deleted. ER2673.
During the public comment and revision process
leading up to the adoption of the 2016 Framework, Petitioners and other Hindu groups identified the draft
Framework’s problematic characterization of Hinduism, which exacerbated the Standards’ defects. For example, the first Hindu American Member of Congress,
Tulsi Gabbard, wrote to the State Board, requesting
that it refrain from identifying the caste system “as a
defining feature or a foundational religious belief of
Hinduism,” and explained that this “goes against the
essence of Hindu teachings and scriptures, which posit
that divinity is inherent in all beings.” ER836–37. But
all such requests were rejected. To the contrary, as Petitioners explained in their Complaint, the State
Board adopted edits that highlighted the connection
between Hinduism and the caste system, relying heavily “upon anti-Hindu reports and recommendations
submitted by several professors under the name
‘South Asia Faculty Group’” or “SAFG.” ER2663–64.
Petitioners’ lawsuit also detailed how the challenged
Standards and the Framework harmed Hindu parents
and their children. Because California law requires
alignment between the curricula taught at school and
the Standards and Framework, Hindu students are
forced to learn and expected to repeat on tests and assignments the state-sponsored, pejorative description
of their religion. ER2682. As a result, Hindu students
“suffer psychological harm, including humiliation and
alienation” and are led to “feel Hinduism is inferior.”
ER2681–83.

11
Given the corrosive influence of this negative depiction of Hinduism, Hindu parents faced the choice of allowing their children to suffer these harms or pulling
their children out of school and paying private school
tuition; some made the latter choice. ER2681. Those
who could not remove their children from public school
were compelled to take remedial steps at home, trying
to dispel the discriminatory characterization of Hinduism mandated as part of California’s curriculum.
ER2681–82.
Armed with these facts, Petitioners challenged the
Standards and Framework in the District Court for
the Northern District of California, alleging violations
of the Fourteenth Amendment’s Equal Protection and
Due Process Clauses and the First Amendment’s Establishment and Free Exercise Clauses.
C. The Proceedings Below
1. Shortly after Petitioners filed their lawsuit in
February 2017, Respondents moved to dismiss. In July
2017, the district court dismissed all of Petitioners’
claims except for an Establishment Clause claim.
Regarding Petitioners’ Free Exercise claim, the district court held that the Complaint failed to state a
claim because it did not allege a “substantial burden”
on any religious practice. Pet. App. 75a–77a. The court
explained that the “Ninth Circuit has explicitly rejected the argument that after Smith, plaintiffs are not
required to demonstrate a substantial burden on their
exercise of religion.” Id. at 75a (citing Am. Family
Ass’n, Inc. v. City & Cty. of San Francisco, 277 F.3d
1114, 1123–24 (9th Cir. 2002)). Petitioners had failed
adequately to allege a substantial burden, the district
court asserted, because there were no “allegations that
student Plaintiffs are prevented from practicing their
faith, or that parent Plaintiffs are in any way barred

12
from instructing their children on religion at home.”
Id. at 76a. Petitioners’ allegations regarding the corrosive effect on their children’s beliefs and other injuries
were insufficient, therefore, because “an ‘actual burden on the profession or exercise of religion is required’” to demonstrate a “substantial burden.” Id. at
77a.
2. Following the district court’s order, the parties
began discovery regarding Petitioners’ Establishment
Clause claim. While that discovery was ongoing, Petitioners sought to file an amended complaint adding allegations, based in part on evidence obtained in discovery, to bolster and thereby reassert their dismissed
Free Exercise claim.
In particular, the amended complaint included evidence that members of the California Department of
Education had coordinated with and expressly arranged for input from the anti-Hindu SAFG. ER315.
Emails from members of the SAFG explicitly identify
their “task” as preventing “recommendations” by
Hindu groups like CAPEEM from “having any traction.” ER318. They likewise identify the process as a
“smoke and mirrors situation,” id.; they repeatedly
mischaracterize CAPEEM and similar groups as
“Hindu nationalist organizations,” ER316; they debate
whether or how to push the idea that Petitioners’
Hindu faith is “invented[],” ER321; and they assert
that “Hindus and Hinduism have appropriated the Vedas, Upanishads, and the [Bhagavad] Gita,” ER322.
Indeed, it was the SAFG that caused the State to
change the Framework to identify the caste system as
a matter of Hindu belief. Id. What is more, when the
2016 Framework was released, two members of the
SAFG were revealed to be co-authors of the Frame-

13
work itself, underscoring that the SAFG’s recommendations were not run-of-the-mill public comments.
ER1522–23.
Petitioners also identified new evidence regarding
textbooks and other curricula implementing the
Standards and Framework, which expressly taught
“the Aryan Invasions” and “caste system” were “central to Hinduism, and Brahmanism.” Discovery even
revealed an in-class activity where students were
forced to role-play the caste system. ER1399; ER1415–
17. Lastly, Petitioners included allegations highlighting the harm suffered by Hindu children, ER1427–29,
and pointing to this Court’s recent decisions, such as
Trinity Lutheran and Masterpiece Cakeshop, which
confirm that a “substantial burden” on religious practice is not necessary to support a Free Exercise claim
alleging the government targeted a religion, ER1436.
The district court denied Petitioners’ motion to file an
amended complaint. ER1105. The court dismissed reliance on Trinity Lutheran and Masterpiece Cakeshop,
and their new factual allegations, concluding that Petitioners’ “amendment would be futile.” Id.
3. Petitioners timely appealed to the Ninth Circuit, challenging, inter alia, the district court’s dismissal of their Free Exercise claim and denial of their motion to amend. The Ninth Circuit affirmed.
The court of appeals held that Petitioners “had failed
to allege a plausible Free Exercise claim, because”
binding precedent required Petitioners “to allege a
substantial burden on their religious practice or exercise.” Pet. App. 10a. The court of appeals also rejected
Petitioners’ argument that decisions like Trinity Lutheran, Masterpiece Cakeshop, and Espinoza v. Montana Department of Revenue, 140 S. Ct. 2246 (2020),
obviated the need to prove a “substantial burden.”

14
Limiting these decisions to their facts, the Ninth Circuit asserted that Petitioners’ “allegations suggest at
most that portions of the Standards and Framework
contain material [they] find offensive to their religious
beliefs” and that this was insufficient to show a cognizable burden on Free Exercise. Pet. App. 17a.
REASONS FOR GRANTING THE PETITION
This Court should grant the petition because the decision below directly implicates a mature conflict
among the courts of appeals on a significant and recurring issue of national importance involving the fundamental right of freedom of religion.
First, the courts of appeals are deeply divided on
whether plaintiffs alleging a Free Exercise claim must
show that government action singling out and disparaging a specific religious faith also imposes a “substantial burden” on their religious exercise. The decision
below reaffirms the Ninth Circuit’s preexisting rule requiring such a showing. And multiple other courts
have followed suit in adopting a “substantial burden”
framework to claims challenging religious discrimination. At the same time, the Third Circuit and the Sixth
Circuit have rejected the “substantial burden” requirement, explaining that it is contrary to this Court’s decisions and would sanction the petty harassment of religious minorities. Because the Ninth Circuit rested its
dismissal of Petitioners’ Free Exercise claim on their
failure to allege a “substantial burden,” this case presents an ideal vehicle to resolve this conflict among the
lower courts.
Second, this Court should grant the petition because
this issue of First Amendment law is recurring and
profound. Indeed, whether a court imposes a “substantial burden” requirement will determine whether a
wide array of government action targeting religion

15
may survive constitutional scrutiny. This is doubly significant because the “substantial burden” requirement
will prevent potentially meritorious claims from making it to discovery, which could (and did in this case)
reveal evidence of overt governmental hostility toward
religion that this Court has found critical when analyzing claims under the Free Exercise Clause.
Finally, this Court should grant the petition because
the Ninth Circuit’s decision conflicts with this Court’s
decisions. Indeed, the “substantial burden” requirement cannot be reconciled with the holdings of Lukumi
and, most recently, Trinity Lutheran. As those decisions make plain, government action singling out and
discriminating against religious minorities is not permissible merely because the burden it imposes fails to
meet a court-imposed threshold of “substantiality.”
I. THE DECISION BELOW IMPLICATES A
MATURE CONFLICT AMONG THE COURTS
OF APPEALS OVER WHETHER A FREE EXERCISE CLAIM REQUIRES THAT RELIGIOUS
DISCRIMINATION
“SUBSTANTIALLY BURDENS” RELIGIOUS EXERCISE.
A. There Is An Acknowledged Conflict
Among The Courts Of Appeals Regarding
Whether A Free Exercise Claim Requires
That Religious Discrimination “Substantially Burdens” Religious Practice.
Review by the Court is warranted because the federal courts of appeals are intractably divided over
whether plaintiffs alleging a claim under the Free Exercise Clause must allege that non-neutral and hostile
government action imposes a “substantial burden” on
the exercise or practice of their religion.

16
Prior to its decision in Smith, this Court applied a
balancing test whereby “governmental actions that
substantially burden a religious practice must be justified by a compelling governmental interest.” Emp’t
Div. v. Smith, 494 U.S. 872, 883 (1990) (citing Sherbert
v. Verner, 374 U.S. 398, 402–03 (1963)). But Smith
“largely repudiated the method of analysis” set out in
prior decisions like Sherbert. See Holt v. Hobbs, 135 S.
Ct. 853, 859 (2015). Instead, Smith imposed a bright
line rule: “[N]eutral, generally applicable” government
action does not violate the Free Exercise Clause, even
if that action burdens, substantially burdens, or, indeed, prevents, a religious practice. Smith, 494 U.S. at
882–90. When government action is not neutral, however, and it singles out a religion for disfavored treatment, such action violates the Free Exercise Clause
unless it can “survive strict scrutiny.” Lukumi, 508
U.S. at 546.
Following Smith, the courts of appeals have issued
conflicting decisions on whether plaintiffs asserting
Free Exercise claims must, as a threshold matter, allege that non-neutral government action imposes a
“substantial burden” on their religious practice.
1. Drawing on Smith and Lukumi, the Third Circuit has rejected the argument that Free Exercise
claims require a showing that government action
“would substantially burden their religious practice.”
Tenafly Eruv Ass’n, Inc. v. Borough of Tenafly, 309
F.3d 144, 170 (3d Cir. 2002). Instead, where the government discriminates against religion, “plaintiffs
need to show only ‘a sufficient interest in the case to
meet the normal requirement of constitutional standing.’” Id.
The Third Circuit’s position dates from 1994, shortly
after Smith and Lukumi. See Brown v. Borough of Mahaffey, 35 F.3d 846, 849 (3d Cir. 1994). In Brown, a

17
Pentecostal minister and his non-profit ministry sued
a municipal borough and its council members for intentionally—though only slightly—impeding access to
his tent revival meetings; council members had locked
a gate, which forced attendees to walk an additional
100 to 200 feet to reach the tent. Id. at 848. The district
court rejected the Free Exercise claim on the ground
that there was no evidence the defendants’ actions imposed a “substantial burden” on plaintiffs’ exercise. Id.
at 847. The Third Circuit agreed that the plaintiffs
would “fail” a “substantial burden” test, but nevertheless reversed the district court. Id. at 850. The Third
Circuit explained that the pre-Smith “substantial burden” requirement was intended “to balance the tension
between religious rights and valid government goals
advanced by ‘neutral and generally applicable laws’
which create an incidental burden on religious exercise.” Id. at 849. But, for government action singling
out and discriminating against a religion, the Third
Circuit explained that a “substantial burden” requirement was improper because it “would make petty harassment of religious institutions and exercise immune
from the protection of the First Amendment.” Id. at
849–50.
The Sixth Circuit likewise has rejected a “substantial burden” requirement for Free Exercise claims. See
Hartmann v. Stone, 68 F.3d 973, 979 nn.3–4 (6th Cir.
1995). In Hartmann, the Sixth Circuit explained that
the “substantial burden” framework was “designed to
judge those situations in which a neutral and generally applicable regulation imposes an indirect, albeit
substantial, burden on the practice of religion.” Id. at
979 n.3. Because the regulation in Hartmann—a military rule restricting provision of faith-based childcare—targeted religion, it was not neutral, and the
plaintiffs, including parents who wished their child to

18
receive such childcare, needed only to “demonstrate a
sufficient interest in the case to meet the normal requirement of constitutional standing.” Id. at 979 n.4;
see also Draper v. Logan Cty. Pub. Library, 403 F.
Supp. 2d 608, 621 n.9 (W.D. Ky. 2005) (affirming that
Free Exercise plaintiffs challenging non-neutral government action need not prove a “substantial burden”).2
2. In stark contrast, the Ninth Circuit, in a series
of decisions, has held that plaintiffs asserting Free Exercise claims must, even where they allege government discrimination against their religion or religious
practice, establish that the government action imposed
a “substantial burden.”
In Vernon v. City of Los Angeles, the court analyzed
a police chief’s claim that an investigation into his religious views infringed on his Free Exercise rights by
restricting his ability (i) to worship, (ii) to consult with
his pastor, and (iii) to give public testimony regarding
his faith. 27 F.3d 1385, 1394 (9th Cir. 1994). The district court rejected Vernon’s claim for failure to establish that “his right freely to exercise his religion was
substantially burdened by the government’s action,”
id. at 1393, and the Ninth Circuit affirmed on this
ground, id. at 1393–94. Specifically, the Ninth Circuit
held that, to the extent the “chilling effects” Vernon alleged were cognizable burdens, “such burdens cannot

2 The Second Circuit appears largely in alignment with the
Sixth and Third Circuits on this issue. The Second Circuit applies
“substantial burden” analysis only when the government action
is “neutral on [its] face” and “there is no indication that a restriction of a plaintiff’s religious activities was the . . . actual objective.” Altman v. Bedford Cent. Sch. Dist., 245 F.3d 49, 79 (2d
Cir. 2001).

19
be said to be ‘substantial.’” Id. at 1395. The Ninth Circuit held that the failure to show a substantial burden
doomed Vernon’s Free Exercise claim. Id.
Likewise, in American Family Association, Inc. v.
City of San Francisco, religious groups brought Free
Exercise claims following the issuance by San Francisco of two public resolutions targeting and condemning the groups’ advertising espousing certain of their
religious views. 277 F.3d at 1118–20. Rejecting the
plaintiffs’ contention that they were not required to
demonstrate a “substantial burden,” the Ninth Circuit
explained that it would continue to apply Sherbert’s
“substantial burden” requirement whenever the challenged government action was not “an actual regulation or criminal law.” Id. at 1123–24 (citing Vernon, 27
F.3d at 1393). As in Vernon, the court concluded that
the “chilling effect” resulting from the city’s resolutions “is not sufficient to constitute a substantial burden.” Id. at 1124.
Finally, in the decision below, the Ninth Circuit recognized and adhered to circuit precedent by affirming
the district court’s determination that Ninth Circuit
precedent required allegations of “a substantial burden on [Petitioners’] religious practice or exercise.”
Pet. App. 10a–11a (citing American Family, 277 F.3d
at 1123–24).
3. In addition to the Ninth Circuit, post-Smith decisions in at least four other circuits have applied a
“substantial burden” test to reject Free Exercise
claims.
In Strout v. Albanese, the First Circuit applied a
“substantial burden” test to reject a claim that a government program that excluded religious schools from
participation in a program to subsidize schooling violated the Free Exercise Clause. 178 F.3d 57, 65 (1st

20
Cir. 1999). The court explained that the restriction did
not place a “substantial burden” on religious belief or
practice. Id. Likewise, in Goodall ex rel. Goodall v.
Stafford County School Board, the Fourth Circuit
ruled that even if the challenged policy—which required the plaintiffs to pay for their son’s speech transliterator if he attended a religious school but not if he
attended public school—were not “generally applicable,” it did not violate the Free Exercise Clause because no “substantial burden ha[d] been placed upon
[the plaintiffs].” 60 F.3d 168, 173 (4th Cir. 1995). To
the same effect is Fleischfresser v. Directors of School
District 200, in which the Seventh Circuit held that
parents could not sustain a Free Exercise claim based
on school curriculum contrary to their religious beliefs
because “their religion is not substantially burdened.”
15 F.3d 680, 690 (7th Cir. 1994). Finally, in Branch
Ministries v. Rossotti, the D.C. Circuit rejected a
church’s claim that the revocation of its tax-exempt
status violated the First Amendment “[b]ecause the
Church has failed to demonstrate that its free exercise
rights have been substantially burdened.” 211 F.3d
137, 142, 144 (D.C. Cir. 2000).
In sum, the Ninth Circuit, and at least four other circuits, impose a “substantial burden” requirement in
order to state a claim challenging government targeting of religion under the Free Exercise Clause.
4. The federal courts of appeals have acknowledged this conflict. Decisions by the Third and Ninth
Circuits have recognized their clear disagreement regarding the applicability of the “substantial burden”
framework. In Tenafly, the Third Circuit specifically
cited the Ninth Circuit’s decision in American Family
as a decision which “persist[s] in imposing a substantial burden requirement.” See 309 F.3d at 170 n.31
(emphasis added). Similarly, in a dissenting opinion in

21
KDM ex rel. WJM v. Reedsport School District, Judge
Andrew Kleinfeld noted the Ninth Circuit’s disagreement with the Third Circuit’s decision in Brown and
the Sixth Circuit’s decision in Hartmann. 196 F.3d
1046, 1054 (9th Cir. 1999) (Kleinfeld, J., dissenting).3
Judge Kleinfeld criticized the Ninth Circuit panel’s
majority decision upholding Oregon’s requirement
that special education services be provided only in religiously neutral settings and explained that, under
Ninth Circuit law, “the government may discriminate
against people based on their exercise of religion, so
long as the discriminatory burdens it imposes are not
more substantial than requiring a blind child with cerebral palsy to leave his school building and go down
the street to a fire hall” to receive special education.
Id. at 1052 (emphasis added).4

The majority in KDM spoke in terms of an “impermissible
burden” rather than a “substantial burden.” Id. at 1051 (majority
opinion) (“We conclude that Oregon’s regulation as applied to
KDM and his parents does not impose an impermissible burden
on their free exercise of religion.”). Regardless, as the dissent recognized, the majority was essentially applying a “substantial burden” analysis. Id. at 1052–55 (Kleinfeld, J., dissenting).
3

4 Judge Kleinfeld also concluded, id. at 1054, that the Ninth
Circuit’s approach was in conflict with the Eighth Circuit’s decision in Peter v. Wedl, where the Eighth Circuit held that a Minnesota regulation barring special education services in private religious schools would violate the Free Exercise Clause. 155 F.3d
992, 996–97 (8th Cir. 1998) (“Government discrimination based
on religion violates the Free Exercise Clause of the First Amendment . . . .”). Candidly, it is difficult to determine the Eighth Circuit’s position on this circuit split because, in other contexts, it
has applied a “substantial burden” analysis to non-neutral government conduct. E.g., Brown v. Polk County, 61 F.3d 650, 655–
56 (8th Cir. 1995) (en banc) (rejecting Free Exercise claim where
government action was not “a ‘substantial[ ] burden’ upon [the
plaintiff’s] religious practices” (alteration in original)).

22
B. This Case Provides An Ideal Vehicle To
Resolve The Conflict.
This case squarely implicates the conflict over the
applicability of a “substantial burden” analysis to nonneutral government action. Both the district court and
the Ninth Circuit expressly rested their rejection of Petitioners’ Free Exercise claim on the failure to allege a
“substantial burden” as required by American Family
and Vernon. Pet. App. 10a–11a, 15a–17a (“Pleading
such a burden is required by our decisions in American
Family . . . and Vernon . . . .”).
Had the Ninth Circuit instead embraced the approach taken by the Third and Sixth Circuits, it would
have been obligated to reinstate Petitioners’ Free Exercise claim. As noted above, when the government
discriminates against a religion, the Third and Sixth
Circuits require only that plaintiffs allege “a sufficient
interest in the case to meet the normal requirement of
constitutional standing.’” Tenafly, 309 F.3d at 170
(quoting Hartmann, 68 F.3d at 979 n.4). Petitioners
plainly meet that standard in light of the injuries alleged in both their initial and amended complaints.
Because Petitioners’ allegations “meet the normal
requirement of constitutional standing,” if their claims
were brought in the Third or Sixth Circuits, they
would not have been rejected because the burden on
their religious exercise was not deemed “substantial.”
Rather, as Petitioners explained in the district court,
the hostility to Hinduism in the Standards and Framework should trigger strict scrutiny, which would require the government to show (i) “a compelling interest” justifying its pejorative treatment of Hinduism
and (ii) that the treatment of Hinduism was “narrowly
tailored to meet that interest.” Hartmann, 68 F.3d at
979; Tenafly, 309 F.3d at 172–78.

23
This case squarely presents the circuit conflict because the decision below dismissed Petitioners’ Free
Exercise claim on the ground that the harm alleged by
Petitioners did not adequately burden their exercise or
practice of religion.
C. The Conflict Concerns An Important And
Recurring Issue Of Federal Law.
As shown in Part I.A., ascertaining the standard for
stating a Free Exercise claim alleging non-neutral government conduct is a recurring issue—one that trial
courts and the courts of appeals have faced and will
face again across the country. It is also a question with
significant ramifications for the relationship between
state action and the rights of religious minorities.
Under the Ninth Circuit’s “substantial burden” approach, the government may discriminate against religious minorities so long as it does so in ways that do
not “substantially” disrupt religious exercise or practice. Or, as the Third Circuit has put it, the Ninth Circuit’s approach “make[s] petty harassment of religious
institutions and exercise immune from the protection
of the First Amendment.” Brown, 35 F.3d at 849–50.
Thus, how a court decides the question presented here
will determine whether a wide array of government action targeting religion can survive constitutional scrutiny.
The correct legal standard is particularly significant
because a “substantial burden” requirement applicable to a party’s allegations would prevent many plaintiffs with potentially meritorious claims from making
it to discovery—discovery which could well uncover the
sort of evidence of religious animus that this Court has
found significant in many post-Smith Free Exercise
decisions. See Lukumi, 508 U.S. at 540–42 (relying on
statements by city counselors reflecting animus

24
against Santeria); see also Espinoza, 140 S. Ct. at
2267–68 (Alito, J., concurring) (citing evidence of antiCatholic motivation as supporting Free Exercise challenge to state exclusion of religiously affiliated schools
from scholarship program).
Indeed, this is just such a case. Limited discovery in
the trial court revealed animus-laden statements
against Hindus by members of the SAFG, and underscored that group’s quasi-governmental role in the
Framework amendment process. See ER315–22 (the
group, including two Framework co-authors, were
asked by members of the California Department of Education to submit comments). In Masterpiece
Cakeshop, this Court found analogous “expressions of
hostility to religion” dispositive of the Free Exercise
claim. See 138 S. Ct. at 1732.
For this reason, the “substantial burden” question
presented here is critically important because it implicates and, in a practical sense, may control whether
the Free Exercise Clause will constrain government
action that discriminates against religious minorities.
II. REVIEW IS WARRANTED BECAUSE THE
NINTH CIRCUIT’S “SUBSTANTIAL BURDEN” REQUIREMENT CONFLICTS WITH
THIS COURT’S PRECEDENT.
In its Free Exercise decisions since Smith, the Court
has never suggested that the Free Exercise Clause requires a showing of a “substantial burden” to challenge
government action targeting religion. To the contrary,
this Court’s decisions prohibit such a limitation on
First Amendment rights.
First, the Ninth Circuit’s “substantial burden” requirement conflicts with the holding in Lukumi.
There, this Court held that government action “target-

25
ing religious beliefs as such is never permissible,” unless it can survive strict scrutiny. 508 U.S. at 533 (emphasis added). But, under the Ninth Circuit’s rule,
such government action is permissible, so long as it
does not impose a “substantial burden” on the exercise
or practice of religion. Thus, as Judge Kleinfeld’s dissent in KDM recognized, the Ninth Circuit’s rule is directly contrary to Lukumi. 196 F.3d at 1054–55 (Kleinfeld, J., dissenting); id. at 1056 (“[T]here is . . . no such
thing as a de minimis exception to the Free Exercise
Clause.”).
Second, the “substantial burden” requirement cannot be reconciled with the holding in Trinity Lutheran.
There, the State argued that preventing a Church
from accessing a grant to purchase rubber playground
surfaces could not violate the Free Exercise Clause because it did “not meaningfully burden the Church’s
free exercise rights.” 137 S. Ct. at 2022 (emphasis
added). This Court rejected that argument because
when it comes to “express discrimination against religious exercise,” the First Amendment prohibits even
“indirect coercion.” Id.
Here, the Ninth Circuit sought to reconcile its “substantial burden” test with Trinity Lutheran’s holding
by essentially limiting that holding’s applicability to
“state program[s] that provide[] financial or other similar benefits” from which a religious entity is excluded.
Pet. App. 15a–16a. Such exclusions, the Ninth Circuit
held, “amount[] to a financial penalty,” which the Free
Exercise Clause prohibits. Id. But that misses the
point of this Court’s analysis. In Trinity Lutheran, it
did not matter that the actual coercive effect of the
“penalty”—i.e., the Church’s inability to resurface its
playground—was likely negligible; instead, Trinity
Lutheran holds that discrimination against religion re-

26
sults in “indirect coercion” against that religion’s adherents and must be justified by a compelling interest
and narrowly tailored to serve that interest. See 137
S. Ct. at 2022.
The Ninth Circuit’s “substantial burden” requirement conflicts directly with Trinity Lutheran. There is
no doubt that requiring Hindu students to “learn” and
be tested on the State’s disparaging depictions of their
Hindu faith will result in more severe “indirect coercion” than a church’s failure to obtain a new playground surface. Thus, the Ninth Circuit’s suggestion
that the impact of the depiction of Hinduism in the
Standards and Framework was insubstantial cannot
be reconciled with Trinity Lutheran.
Here, as in Trinity Lutheran and Lukumi, the state
action targets Petitioners’ Hindu faith. And, as in Masterpiece Cakeshop, the State has “sen[t] a signal of official disapproval of [Petitioners’] religious beliefs,”
138 S. Ct. at 1731, and mandated that Petitioners’ own
children be indoctrinated with a derogatory and erroneous depiction of those beliefs. Under the Free Exercise Clause, Respondents’ action should not be permitted to stand.

27
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
CARTER G. PHILLIPS*
PAUL J. ZIDLICKY
J. MANUEL VALLE
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
cphillips@sidley.com
Counsel for Petitioners
February 16, 2021
* Counsel of Record

